CERTIFICATE OF SERVICE

I, Ruben Orlando Benitez, Indigent Pro Se Prisoner
Plaintiff, do hereby certify that I have this day caused to
be mailed by MDOC ILAP, this Petition for Extraordinary
Writ pursuant to the Rule 20 of the Supreme Court of the
United States by U.S. mail postage prepaid a true and
correct copy of the foregoing instrument to the following-

Hon. Clerk of the Court
U.S. Supreme Court
1 First Avenue
Washington, D.C. 20543
Stephen R. Graben
Assistant U.S. Attorney
1575 20th Avenue
Gulfport, MS 39501
Hon. Clerk of the Court
U.S. Court of Appeals Fifth Circuit
600 S. Maestri Place
Suite 115
New Orleans, LA 70130
./

Done this the

day of September, 2020

Ruben OrtajmtfBenitez
/^CDOC# 182157
SMCI
BLDG D l B'Zone Bed 194
P.O. Box 1419
Leakesville, MS 39451

ll

